i

APPENDIX

33

APPENDIX A-l
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
PENNSYLVANIA
No. 19-5574
KEITH FERNANDEZ,
Plaintiff,
v.

THE WHARTON SCHOOL OF THE UNIVERSITY
OF PENNSYLVANIA, et. al„
Defendants.
Signed^ May 11, 2020
ORDER
EDUARDO C. ROBRENO, Chief Judge.
AND NOW, this 11th day of May, 2020, after
considering Defendants’ Motion to Dismiss (ECF No.
9), Plaintiffs Response to Motion to Dismiss (ECF No.
ll), and Defendants’ Reply in Support of Motion to
Dismiss (ECF No. 13), it is hereby ORDERED that
Defendant’s Motion to Dismiss (ECF No. 9) is
GRANTED, and the Complaint (ECF No. l) is
DISMISSED with prejudice. 1
1. The motion is granted because the facts alleged show that
there was no contract, there was no breach, and there was
no intentional discrimination.

34

Plaintiff, a 2018 Wharton graduate, left a three-month
summer internship—which he obtained through the school’s
recruiting program—after two months. He failed to complete the
full internship term because, according
to him, it involved long hours and menial tasks. And he did not
consult Wharton about his decision to withdraw from the
internship. By not consulting Wharton, he violated Wharton’s
reneging on offers .policy. Wharton, in accordance with this
policy, suspended Plaintiffs access to its recruitment program.
Shortly afterwards, Plaintiff complained to the administration
about this suspension, and his access to the recruitment program
was reinstated.
Although Plaintiff performed well academically at
Wharton, he did not obtain the highest grade point average
(“GPA”) of the class in the second and third semesters, and thus
did not obtain the Academic Excellence Fellowship. This
Fellowship awards $10,000 to the student (or students if there is
a tie) at Wharton with the highest GPA in the second and third
semesters. Although Plaintiff earned six “A+”- grades, an “A+” is
equivalent to an “A” under Wharton’s grading policy. And over
the two semesters relevant to the Fellowship, Plaintiff earned a
GPA that was .01 points below two other students. Because he
did not obtain the highest GPA, he was not awarded the
Fellowship.
Plaintiff brings three claims: (l) breach of contract in
that he was suspended from the recruiting program, (2) breach
of contract in that he was not awarded the Fellowship, and (3) §
1981 discrimination in both of these
breaches.
As this is a motion to dismiss, the Court must “accept as
true all allegations in the complaint and all reasonable
inferences that can be drawn there from, and view them in the
light most favorable to the non-moving party.” DeBenedictis v.
Merrill Lynch & Co., 492 F.3d 209, 215 (3d Cir. 2007) (internal
quotation omitted). To withstand a motion to dismiss, the
complaint’s “[f]actual allegations must be enough to raise a right
to relief above the speculative level.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 555 (2007). Where the plaintiff is proceeding pro
se, the complaint is liberally construed, and the Court applies
the applicable law even where the pro se plaintiff has not
identified it. Dluhos v. Strasberg, 321 F.3d 365, 369 (3d Cir.
2003).

35

The motion to dismiss is granted for three reasons: the
first two reasons apply to all the claims, and the third reason is
an independent reason for dismissing the third claim.
First, there is no plausible contract on which Plaintiff
can base any of his claims because he does not point to the
specific policies that form an enforceable promise. The
contractual nature of the university-student relationship allows
a student, under Pennsylvania law, to sue for a breach of
contract, but “the allegations must relate to a specific and
identifiable promise that the school failed to honor.” David v.
Neumann Univ., 177 F. Supp. 3d 920, 925 (E.D. Pa. 2016) (citing
Vurimindi v. Fuqua Sch. of Bus., 435 F. App’x 129, 133 (3d Cir.
2011) (nonprecedential)). And “general references to the
handbook, syllabi, and protocols” will not suffice. Id. Here,
Plaintiff points generally to “the various contractual provisions”
contained in the human resources policies, the affirmative action
policies, the academic policies, the code of ethics, and the
recruiting policies. Even the most specific provision he points
to—the recruiting policy about reneging on job offers—does not
contain a promise that students will have access to the recruiting
program. He also does not point to any provision that can be
fairly read as guaranteeing him a fellowship award, a nondiscriminatory fellowship-awarding process, or a GPA
calculation agreeable to him. See Nungesser v. Columbia Univ.,
169 F. Supp. 3d 353, 370 (S.D.N.Y. 2016) (“In contrast, a general
statement of a university's adherence to existing antidiscrimination laws does not create a separate and independent
contractual obligation.” (internal quotation omitted)).
Second, even if there was a contract, there was no
plausible breach here. Both alleged breaches were not breaches
at all: (]_) Plaintiff was suspended from the recruiting program
because he reneged on his internship offer, and (2) Plaintiff was
not awarded the Fellowship because he did not have a high
enough GPA. As to the first claim for breach of contract, Plaintiff
was suspended from the recruiting program because he reneged
on an offer when he failed to carry out his promise to his
internship employer to work for three months. His attempt to
draw a distinction between reneging on an offer and failing to
honor an internship commitment fails as a matter of plain
language because to renege means “[t] o fail to carry out a
promise or commitment.” Renege, American Heritage Dictionary
(4th ed. 2001). Likewise, his argument that at-will employment
voids the recruiting policy fails because the internal policies of a

36

university must be left to the university’s self-governance unless
“biased, prejudicial[,] or lacking in due process,” none of which
are present here. Schulman v. Franklin & Marshall Coll., 538
A.2d 49, 51 (Pa. Super. Ct. 1988). As to the second claim for
breach of contract, Plaintiff was not awarded the Fellowship
because he did not have the highest GPA in the second and third
semesters. That Defendants’ “A+” policy did not benefit Plaintiff
is not a breach of contract because the “A+” policy was part of the
bargain all along. And that Defendants did not ignore the
Fellowship criteria and award the Fellowship to Plaintiff even
though he did not have the highest GPA is also not a breach of
contract. The bargain between the parties provided that the
Fellowship would be awarded to the student or students that met
the criteria—which Plaintiff did not.
Third, as to the claim of discrimination, the § 1981 claim
fails on the independent basis that there is no allegation of
intentional discrimination. A § 1981 claim requires a showing of
intentional discrimination, meaning that the defendant “selected
or reaffirmed a particular course of action because of, not merely
in spite of, its adverse effects upon an identifiable group.” Pollard
v. Wawa Food Mkt., 366 F. Supp. 2d 247, 252 (E.D. Pa. 2005)
(quoting Pers. Adm’r of Mass. v. Feeney, 442 U.S. 256, 279
(1979)). Not only does Plaintiff fail to allege facts showing
intentional discrimination, but he affirmatively alleges
unintentional discrimination, arguing that Defendants were
negligent.
Although leave to amend is freely given, leave may be
denied if the amendment “is futile [in that] the amended
complaint would not survive a motion to 'dismiss for failure to
state a claim upon which relief could be granted.” Alvin v.
Suzuki, 227 F.3d 107, 121 (3d Cir. 2000). This is true even where
the plaintiff is a pro se htigant and alleges a civil rights violation. .
See Tate v. Morris Cty. Prosecutors Office, 284 F. App’x 877, 879
(3d Cir. 2008) (“[D]istrict courts in this circuit must grant leave
to amend before dismissing a pro se civil rights complaint, even
if the plaintiff does not request it, unless amendment would be
futile or leave to amend is not warranted for some other reason.”
(citing Phillips v. County of Allegheny, 515 F.3d 224, 235-37 (3d
Cir. 2008) and Grayson v. Mayview State Hosp., 293 F.3d 103,
108 (3d Cir. 2002))). And the absence of any facts suggesting a
valid contract or an actionable breach is sufficient to find futility.
See, e.g., Katz v. Nat’l Bd. of Med. Examiners, No. 15-cv-1187,
2017 WL 515006, at *2 (M.D. Pa. Feb. 7, 2017) (“The Court,

37

however, finds that because there are no facts to suggest the
presence of a contract between Plaintiff and Defendants, any
such attempt to amend this claim would be futile.”), affd, 751 F.
App’x 231 (3d Cir. 2018); Zamos v. McNeil-PPC, Inc., No. 16-cv
5038, 2017 WL 68577, at *6 (E.D. Pa. Jan. 5, 2017) (“[I]t would
be futile to permit leave to amend since no amendment to the
Complaint would change the fact that no valid contract existed
between Plaintiff and Defendants.”), affd, 713 F. App’x 133 (3d
Cir. 2017).
Here, leave to amend would be futile because Plaintiff
could not amend the complaint to identify a contract that would
give rise to liability. Plaintiff can at best amend the Complaint
to identify specific promiseDcreating provisions in Defendants’
handbooks and policies. But Plaintiff cannot identify provisions
that guarantee access to the recruitment program under the
circumstances that he alleges or that guarantee being awarded
a fellowship regardless of GPA. Thus, he could not plausibly
allege a contract leading to liability on these facts. See Bister v.
Cmty. Bank of Rowan, No. 14-cv-5079, 2015 WL 5585572, at *9
(E.D. Pa. Sept. 22, 2015) (“Because Plaintiffs pleadings with
respect to [Count Two fails to identify a contract and thus does]
not include any allegations suggesting that he could conceivably
establish a claim upon which relief could be granted, the Court
finds that any amendment of [this claim] would be futile.”). The
only provisions forming enforceable promises will consist of
promises that were not breached—such as a promise that a
student will have access to the recruiting program as long as he
does not renege on a job offer, or a promise that a student will
win a fellowship if he has the highest GPA. Thus, Plaintiff could
not plausibly allege that Defendants’ conduct violated a contract.
See Bantum v, Mortg. Elec. Registration Sys., Inc., No. 11-cv4431, 2012 WL 3020411, at *3 (E.D. Pa. July 23, 2012)
(“[A]mendment [to allege a breach of contract based on an
assignment] would be futile because plaintiffs mortgage
expressly permits assignments.”). In sum, Plaintiff was
suspended from the recruiting program because he violated the
recruiting policy, and Plaintiff was not awarded the Fellowship
because his GPA was not high enough, and no facts can be
alleged to turn these occurrences into breaches of contract.
Thus, the Complaint is dismissed with prejudice
because the allegations do not allow a plausible inference that
the actions taken by Defendants are breaches of contract.
Under these circumstances, an amendment would be futile.

38

APPENDIX B-l
UNITED STATES COURT
OF APPEALS FOR THE THIRD CIRCUIT
No. 20-2218
KEITH FERNANDEZ,
Plaintiff,
v.
THE WHARTON SCHOOL OF THE UNIVERSITY
OF PENNSYLVANIA, et. al„
Defendants.
(U.S. District Court No.: 2-19-cv05574)
ORDER
Pursuant to Fed. R. App. P. 3(a) and 3rd Cir.
Misc. LAR 107.2(b), it is ORDERED that the abovecaptioned case is hereby dismissed for failure to
timely prosecute insofar as appellant failed to file a
brief and appendix as directed. It is FURTHER
ORDERED that a certified copy of this order be issued
in lieu of a formal mandate.
For the Court,

s/ Patricia S. Dodszuweit
Clerk

A True Copy;y°

Dated: November 03, 2020

39

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

APPENDIX C-l
(ORDER LIST: 589 U.S.)
THURSDAY, MARCH 19, 2020
ORDER
In light of the ongoing public health concerns
relating to COVID-19, the following shall apply to
cases prior to a ruling on a petition for a writ of
certiorari:
IT IS ORDERED that the deadline to file any
petition for a writ of certiorari due on or after the date
of this order is extended to 150 days from the date of
the lower court judgment, order denying discretionary
review, Or order denying a timely petition for
rehearing. See Rules 13.1 and 13.3.
IT IS FURTHER ORDERED that motions for
extensions of time pursuant to Rule 30.4 will
ordinarily be granted by the Clerk as a matter of
course if the grounds for the application are
difficulties relating to COVID-19 and if the length of
the extension requested is reasonable under the
circumstances. Such motions should indicate whether
the opposing party has an objection.
40

IT

IS

FURTHER

ORDERED

that,

notwithstanding Rules 15.5 and 15.6, the Clerk will
entertain motions to delay distribution of a petition
for writ of certiorari where the grounds for the motion
are that the petitioner needs additional time to file a
reply due to difficulties relating to COVID‘19. Such
motions will ordinarily be granted by the Clerk as a
matter of course if the length of the extension
requested is reasonable under the circumstances and
if the motion is actually received by the Clerk at least
two days prior to the relevant distribution date. Such
motions should indicate whether the opposing party
has an objection.
IT IS FURTHER ORDERED that these
modifications to the Court’s Rules and practices do not
apply to cases in which certiorari has been granted or
a direct appeal or original action has been set for
argument.
These modifications will remain in effect until
further order of the Court.

41

APPENDIX D-l
UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF FLORIDA
No. 6:20-cr-00132-Orl-37EJK
UNITED STATES OF AMERICA,
Plaintiff,
v.

KEITH FERNANDEZ
Defendants.
Dated: February 15, 2021
MOTION TO DISMISS THE INDICTMENT
Comes now Defendant KEITH FERNANDEZ,
pursuant to Fed. R. Crim. P. 12(b)(2) and (3), and
7(c)(2), respectfully requests that the Court dismiss
this indictment because, on its face, it exhibits: (i)
evidence of Prosecutorial Misconduct in the Grand
Jury, including intentional Material Omissions in the
Grand Jury Indictment and other Brady v. Maryland
violations; (ii) Factual Inaccuracies & Material
Recantations in the testimony of the Grand Jury
Witness due to Felony Tampering of the Grand Jury
Witness in violation of 18 U.S. Code §1512; (iii)
documented Obstruction of Justice including
unnecessary communication and collusion between

42

the Prosecutor in this Case and the Private Defense
Counsel in Fernandez’s Qui-Tam Suit and (iv) other
evidence indicative of Prosecutorial Misconduct and
Framing of the Defendant..
FACTUAL BACKGROUND
On August 8, 2018, Defendant FERNANDEZ
filed a Federal Lawsuit in the Middle District of
Florida exposing alleged Large-Scale Medicare Fraud
(estimated proceeds over $100 million) by Serial
Offenders currently under investigation by the FBI &
other Federal Agencies.
Within days, it is the Defendant’s belief that he
was put under warrantless Electronic Surveillance by
the CIA resulting in numerous Federal Offenses being
committed against him in an attempt to obstruct or
influence his Qui-Tam Suit, including violations of 18
U.S. Codes § 1503, § 1512 & § 1513 and the resultant
Criminal & Civil Complaints being filed:
8/26/19: Federal Civil Rights Complaint (Case No.
6;2019cv01627) filed reporting an illegal & framed
Involuntary Commitment, including race & sex
taunting & material inaccuracies in the Ex-Parte
Order (statements such as “Fernandez is about to
go homeless” & is on the “verge of destitution”)
3/17/2Q: Complaint of Criminal Torture filed with
the Human Rights & Special Prosecutions Section
of the U.S. Department of Justice reporting
Extreme Surveillance Abuse, Force Suicide Taunts
& Felony Witness Tampering
4/19/2Q: Police Report filed with the NYPD
reporting coordinated Sex Trafficking, Sexual
Molestation & Felony Witness Tampering by
Federal Agents
4/24/2Q: Criminal Complaint filed with the US

43

•

•

•

•

Attorney General of the Eastern District of New
York reporting Surveillance Abuse, Felony Witness
Tampering & Obstruction of Justice
5/20/20- Federal Civil Rights Complaint (Case No.
L2020cv02116) filed reporting an up to 20-Year
Federal Incarceration Ordered Felony Witness
Tampering Assault & Federal Hate Crime
(Galindo-Sanchez)
9/17/2Q: Complaint of Sustained Felony Torture
filed with the UN Convention against Torture &
Human Rights Council (“Exhibit E”) reporting
Serious Human Right Violations including alleged
Poisonings & Use of Chemical Weapons
9/18/20: Framed Arrest of Fernandez (waiting
almost two months after the Indictment Warrant
was issued despite investigators knowing his
location) in an attempt to intentionally Obstruct
Justice on his Qui-Tam Suit and dismiss his Suit
10/11/2Q: Request for Protective Custody
submitted in Federal Detention due to sustained
Felony Torture in his cell, intentional tampering
with his Public Defender, threats of Felony
Stabbing Assault & Felony Leaking of his
Protected Health Information (“PHI”) to facilitate
Felony Torture of the molestation victim

Currently, Fernandez is being held on 24/7
Home Incarceration on a First-Time Non-Violent
Felony Charge, suspicious treatment relative to other
Federal Offenders in his category. He has extremely
rare educational & professional achievements
including graduating from Harvard with Honors,
working at leading Private Equity Firms such as
KKR, winning the Entrepreneurial Excellence Award
from the National Society of Hispanic MBAs and
graduating from Wharton Business School as one of
the Valedictorians of his class (“Exhibit F’). He and
his family are still experiencing persistent Felony
44

Stalking & Witness Intimidation for his QurTam
Lawsuit in violation of 18 U.S. Codes § 1512. He even
had to terminate his Legal Counsel as there was
evidence that he had been tampered with and was
committing malpractice.
ARGUMENT
Given the factual background in this case, it
has become very evident that this indictment has
been colored unduly with malice and retaliatory
intent and potentially initiated or influenced illegally
through warrantless Electronic Surveillance of
Fernandez in violation of his Fourth Amendment
Right and in retaliation for him filing a Federal QuiTam Complaint.
Regardless of the validity of this assertion
regarding suspected misuse of Federal Electronic
Surveillance (which would be covered up and not
disclosed anyways), this indictment must be
dismissed on its face due to (i) evidence of intentional
& flagrant Prosecutorial Misconduct & Material
Omissions in the Grand Jury Indictment, (ii) evidence
of improper conduct and communication by the
Prosecutor with the Private Defense Counsel to the
Defendants in Fernandez’s Qui'Tam Complaint
suggestive of Obstruction of Justice and (iii) a
Material Recantation in the Grand Jury Testimony of
the Witness due to extreme pressure, harassment &
the intentional tampering of the Witness in violation
of 18 U.S. Codes § 1512.
In Costello v. United States, 350 U.S. 359, 363
(1956), the Supreme Court held that a federal
indictment is presumptively valid. However, the
federal courts possess an inherent supervisory power
to maintain and enforce civilized standards of
45

procedure and evidence and to ensure that retaliatory
intent or bias is not present in a prosecution. See
United States v. Hasting, 461 U.S. 499, 505 (1983).
See McNabb v. United States, 318 U.S. 332, 340-41
(1943).
This power also enables courts to dismiss
indictments on pre-trial motions when they find
prosecutorial misconduct to have occurred during
grand jury proceedings. See United States v. Omni
Inti Corp. 634 F. Supp. 1414 (D. Md, 1986).
1. The Prosecutor Committed Prosecutorial
Misconduct in the Grand Jury Indictment &
Intentionally Suppressed Important Evidence
of a Third-Party Billing Company Unfairly
Biasing the Grand Jury & Prejudicing the
Defendant
In United States v. Bundy, No. 18-10287 (9th
Cir. 2020) the District Court dismissed the indictment
against the Defendants with prejudice due to
violations of Brady v. Maryland, mainly the
intentional suppression of material exculpatory
evidence by the prosecutor in an attempt to “unfairly
bias” and “prejudice” the Jury against the Defendant.
• Additionally, consistent with United States v.
Hogan, 712 F.2d 757, 761 (2d Cir. 1983), dismissal of
an indictment is justified for either of the two
following reasons^ (i) to mitigate prejudice to the
individual defendant and (ii) to prevent prosecutorial
misconduct and impairment impacting the partiality
of the Grand Jury.
This objective is based upon the desire to
enforce appropriate behavior by the prosecutor in
presenting evidence to the Grand Jury. Additionally,
the dismissal of an indictment due to prosecutorial
46

misconduct acts to deter future misconduct by
prosecutors. Its aim is to prevent the damaging
impact that such prosecutorial misconduct and
framing has on the integrity of the Federal Court
System and aims to deter this behavior from
happening again in the future. This need for
deterrence of prosecutorial misconduct justifies the
sanction of dismissal.
Furthermore, under the United States v.
Hasting precedent , the “balancing test” actually
supports the dismissal of an indictment on a pre-trial
motion as a way to conserve resources when
prosecutorial misconduct is present. This conclusion
that the Hasting precedent supports dismissals of
tainted indictments in pre-trial motions when
evidence of prosecutorial misconduct is present is also
supported by an exhaustive, in-depth Fordham Law
Review on the topic.
Similar to all of these precedents, an identical
dynamic has occurred here against Defendant
Fernandez,
with
his
indictment
reflecting
prosecutorial misconduct, intentional material
omissions and an attempt to “unfairly prejudice” the
Defendant and bias the Grand Jury.
Given the Defendant’s status as a Federal
Whistle-Blower, the documented extreme tampering
and retaliation of Defendant Fernandez in violation of
18 U.S. Codes § 1512 & § 1513, the documented
inappropriate
communications
between
the
prosecutor and the Private Defense Counsel to the
Defendants in his Qui-Tam Suit, and other concerns,
the prosecutorial misconduct against Defendant
Fernandez in this case is objectively even more
flagrant and severe than in United States v. Bundy
and United States v. Omni Inti Corp.

47

The Intentional Material Omission by the Prosecutor
of a Key Third-Party
Specifically, Fernandez hired and was working
with a Third-Party Billing Company, WebMobril
Technologies Pvt. Ltd. (“WebMobril”), based out of
Delhi, India, over the course of the entire alleged
criminal conduct in his Indictment.
This Company was granted access to all of his
data, was given passwords to his website accounts,
social media accounts, billing accounts and gmail
accounts and had access to all of Fernandez’s personal
information and data.
WebMobril was also the Entity directly
preparing, reviewing and physically submitting all of
the Electronic Claims submitted to Medicare and
TriCare for Fernandez’s Company National
Diagnostic Solutions LLC (“NDS”) and any related
practices such as Lake Mary Radiology PLLC (“LMR”)
that were under management services contracts with
NDS.
WebMobril had full access to Fernandez’s
billing software and data (see Exhibit H) and it was
their employees who were accessing his billing
software and physically billing all of his claims for
reimbursement from Medicare and Tricare.
Additionally, it was their IP information from
logins into his Billing Software that were found at the
crime scene from the Electronic Clearinghouses and
Billing Providers that processed all of the claims for
his Companies.
Towards the end of his relationship with
WebMobril, Fernandez began to suspect that this
Company was billing his data without his consent or
in ways that were intended to cause him harm or

48

frame him for criminal offenses from the very
beginning.
It is his belief that WebMobril was being
tampered with and that this behavior was being done
in retaliation and in connection with the Felony
Witness Tampering he was receiving from his Federal
Qui'Tam Lawsuit. The Defendants in his Qui-Tam
Lawsuit are powerful and connected politicians in the
Indian government. This is one possible explanation
and motive for why tampering and framing with
WebMobril occurred.
This criminal conduct by WebMobril was
confirmed to Fernandez when in May 2019 a wire for
-$81,000 was received “completely out of the blue”
into his Company bank account from a Medicare
contractor. It was later discovered that this was due
to the fraudulent billing activity of WebMobril.
Fernandez knew it would take over 100 hours
to sit down and manually bill the data needed to
generate this reimbursement of ~$81,000 from a
Medicare contractor. He did not instruct, influence or
otherwise tell WebMobril to bill this data, had ceased
communications with WebMobril and had no idea why
WebMobril would bill his data fraudulently in this
way.
Furthermore, he directly caught WebMobril
illegally accessing his Billing Software to fraudulently
bill his data, weeks after he had ceased
communication with the Company due to suspicions
of criminal framing and blocked their logins.
This is when Fernandez knew for sure. He was
getting criminally framed.
He sent a final email to WebMobril alerting
them to his discovery of their fraudulent billing
activity on 6/24/19 and ceased all communications
with this Company in India.
49

Under Brady v. Maryland and United States v.
Bundy, important legal precedent was set requiring
Prosecutors to disclose important exculpatory
evidence in prosecutorial proceedings to ensure that
“undue prejudice” is not inflicted on the Defendant
and that the Jury is not “unfairly tainted or biased.”
The failure to do so is deemed prosecutorial
misconduct and would lead to a dismissal of the
indictment, including the dismissal of an indictment
on a Pre-Trial Motion if prosecutorial misconduct
existed consistent with United States v. Omni Inti
Corp.
In this case, the Prosecutor knew that a ThirdParty Billing Company in India existed and that this
Company was physically billing all of the Electronic
Claims. Despite this, the Prosecutor intentionally
refused to disclose this in the Grand Jury Indictment.
This had the intent of unfairly biasing the Grand
Jury, causing undue prejudice against the Defendant
and led to the framing of the Defendant as the sole
perpetrator of the criminal offense.
In this case, the Prosecutor had possession of
important exculpatory evidence confirming the
existence of WebMobril, including subpoenas of the
electronic correspondence between Fernandez and
WebMobril that occurred through his email and
messaging accounts (including evidence that
WebMobril billed Fernandez’s claims illegally),
potentially Electronic Trace & IP
data generated by logins from India into his Billing
Software and other exculpatory evidence proving the
existence of a Third-Party Billing Company in India.
Furthermore, investigators from the FBI
alerted key witnesses, including Fernandez’s mother,
Cathy Fernandez, that there was' evidence of his
claims being billed from a source in India. Their
50

knowledge of the existence of this Third-Party in
India was confirmed by Fernandez’s mother and was
documented in FBI reports, FBI investigatory
documentation and further evidence collected from
the crime scene.
In this case, the Prosecutor had access to all of
this information and evidence, but intentionally did
not disclose the existence of this important CoDefendant in the Grand Jury Indictment in an
attempt to “unfairly prejudice” the Defendant and
“frame” the Defendant.
Very similar to a rape crime scene, if
Prosecutors intentionally fail to disclose the existence
of a Co-Defendant or exculpatory DNA evidence, the
indictment can get dismissed. Very similar to a
murder crime scene, if Prosecutors intentionally fail
to disclose the existence of
a Co-Defendant or exculpatory Blood evidence, the
indictment can get dismissed.
The very same dynamic occurred here. The
prosecutor and investigators were aware of this
important Third-Party in India, but intentionally did
not disclose the existence of this Third-Party in the
Grand Jury Indictment or Indictment papers to
“unduly prejudice” the
Defendant and “bias” the Grand Jury.
Given this Intentional & Material Omission by
the Prosecutor, this Indictment needs to get dismissed
due to evidence of prosecutorial misconduct &
intentional material omissions consistent with the
United States v. Omni Inti Corp and United States v.
Bundy precedents.

51

The Indictment is Tainted with Material Inaccuracies
and a Recantation in the Grand Jury Testimony due
to Flagrant Pressure & Tampering of the Witness
Given the substantial documentary evidence of
Felony Witness Tampering & Retaliation of
Fernandez in violation of 18 U.S. Code §1512 & §1513,
it has become very clear that this indictment and
prosecution is tainted with the color of malice,
politically motivated and potentially being used as a
vehicle to Obstruct Justice on his Federal Qui-Tam
Complaint.
“Historically, [the grand jury] has been
regarded as a primary security to the innocent against
hasty, malicious and oppressive persecution; it serves
the invaluable function in our society of standing
between the accuser and the accused, whether the
latter be an individual, minority group, or other, to
determine whether a charge is founded upon reason
or was dictated by an intimidating power or by malice
and personal ill will.” Wood v. Georgia, 370 U.S. 375,
390, 8 L. Ed. 2d 569, 580, 82 S. Ct. 1364, 1373 (1962).
In this case, investigators got obsessed and
addicted to Fernandez (most likely due to his QuiTam Complaint) and just could not stop harassing Dr.
Fernandez. They incessantly called him at work over
and over and over again. Nothing he could say was
enough. No matter how much information he
provided, it was never enough. They intentionally
embarrassed Dr. Fernandez & publicly outed him at
his Employer, causing him extreme reputational
damage.
violated
Furthermore,
Investigators
Fernandez’s Constitutional Right to Due Process
under the Fifth & Fourteenth Amendments and
widely leaked the personal information of Dr.
52

Fernandez and his son even before the audit
commenced, before the audit finished, before the
indictment occurred and before the arrest of his child
occurred. Irreparable damage, deprivation of freedom
and deprivation of public standing were inflicted on
the Fernandez family even before a Formal
Adjudication process occurred or the audit of his
practice commenced.
Given this dynamic, it has become apparent
that leaking of Confidential Information occurred
here, potentially suggestive of violations of Title 18 of
the U.S. Code, Section 798 or other Federal Laws
prohibiting the leaking of Classified Federal
Intelligence.
Such wide-spread and reckless leaking of
confidential information, extreme defamation and
“pre-indictment publicity” clearly biased the Grand
Jury and could constitute an additional reason to
dismiss the indictment consistent with Legal
Precedent.
Such persistent & sociopathic behavior by
investigators and prosecutors, motivated as
retaliation for Fernandez’s Qui-Tam Complaint,
resulted in severe psychological and emotional
pressure being put on the Grand Jury Witness to
euthanize his own child unethically.
It got so bad, Federal Agents would tamper
with Dr. Fernandez’s techs, his surgical patients and
influence his administrators and bosses at work to
make fun of him and ridicule him.
Such sociopathic behavior caused Dr.
Fernandez to suffer Extreme Emotional Distress,
Reputational Damage and a Vasovagal Syncope that
almost resulted in a Hospitalization due to the
felonious tampering and intimidation of Dr.
Fernandez.
53

Not to minimize or mitigate the alleged
offenses in this indictment, but all of this pressure
was being inflicted on Dr. Fernandez for only ~$400k,
a relatively small amount of money in the world of
Medicare for a physician of Dr. Fernandez’s caliber.
Dr. Fernandez has been a successful physician for ~35
years and has billed Medicare and
Tricare over $50 Million over his entire career in
healthcare. They defamed him so badly at his
employer Florida Hospital that he feared retaliation
and firing. They widely leaked his Confidential
Information and everyone in the hospital knew about
his personal information and the audit, despite the
audit papers, indictment or arrest not being made
public.
Such sociopathic pressure being put on Dr.
Fernandez, most likely in retaliation for the Qui-Tam
Complaint of his son, resulted in a material
recantation and inaccuracies in his Grand Jury
Testimony.
In his Testimony at the Grand Jury, Dr.
Fernandez felt so pressured and afraid that he told
the Grand Jury that he had “no knowledge
whatsoever” of Lake Mary Radiology PLLC (“LMR”)
and that he “never discussed the re-opening of the
practice” with his son and had “no idea whatsoever”
that claims were being billed from LMR under his
NPI.
This was in fact untrue and a material
recantation in his Testimony.
Dr. Fernandez has since admitted that he had
a specific telephonic conversation with his son in
which they specifically discussed the re-opening of
LMR. He was in fact aware of this and his Grand Jury
Testimony contained material inaccuracies, due to the
persistent sociopathic
54

tampering and pressure of the Witness, in retaliation
for the Qui-Tam Complaint filed by his son.
Dr. Fernandez knew that LMR was associated
with NDS and he knew that both entities were under
a Management Services type relationship. He knew
that it was just a billing formality that LMR was used
in conjunction with NDS and he had been comfortable
with this before in the past. This is very common in
healthcare. Using a dormant PC with an LLC, to
facilitate billing.
In this telephonic conversation, Dr. Fernandez
and Keith specifically discussed the reopening of
LMR. Keith did mention to Dr. Fernandez that
Independent Contractors were being used and that
Radiology exams were being “purchased” and billed
under the Supervisory Provider, Dr. Fernandez, even
though he did not directly interpret the exams.
This is common practice in Radiology. Using
Independent Contractors to provide interpretations
and then billing for those Exams under the Physician
Owner of the practice.
It is not illegal to due this under Medicare
Diagnostic Purchasing Laws as long as the
Independent Contractors are being paid “fair-market
value” for their interpretations and/or share in the
practice.
Dr. Fernandez and Keith had a long
conversation about this and Dr. Fernandez was
indeed aware of the re-opening of LMR and was
indeed aware of the billings under Dr. Fernandez, a
material recantation from his Grand Jury Testimony.
Dr. Fernandez instructed Keith to transition
the billing to a new Provider and properly credential
another physician to avoid any further “pass-through”
billing problems.

55

It was at this point in time that Keith
discovered that his Billing Company, in India,
WebMobril, was criminally framing him and billing
his data and information in ways that he did not
consent, did not approve of and was not aware of.
For example, upon further inspection, Keith
discovered that physicians, Dr. Salvatore Trazzera,
Dr. Uzi Talit and others, were being billed under LMR
without his knowledge or consent by WebMobril in
India.
This made him further suspicious of
WebMobril as these physicians were dormant doctors
that had worked with Keith over his time doing
business with the Defendants in his Qui'Tam
Complaint. He had no idea why information under
these physicians was billed. WebMobril somehow
knew , that these physicians were linked to
Fernandez’s Qui'Tam Complaint.
Any other billings in LMR being done under
any other providers other than his father, Keith was
unaware of and did not consent to. Keith’s father was
indeed aware of the re-opening of LMR and billings
under his name. This was a material inaccuracy in his
Grand Jury testimony.
Given these material recantations and
inaccuracies in the testimony of the Grand Jury
witness and due to the evidence of prosecutorial
misconduct, this has become a tainted indictment and
is subject to dismissal.
The Hasting Precedent — A Balancing Test
Clearly this is a tainted indictment with
evidence of prosecutorial misconduct, material
omissions and inaccuracies in the Grand Jury
testimony unfairly prejudicing the Defendant.
56

With regards to tainted indictments, in United
States v. Hasting 461 U.S. 499, 505 (1983), the
Supreme Court held that the federal courts may
indeed exercise their supervisory power to correct and
dismiss tainted indictments to preserve judicial
integrity, rectify prosecutorial misconduct and correct
any material errors or improper conduct in the Grand
Jury proceedings unfairly biasing or prejudicing the
Defendant.
In Hasting, the Supreme Court held that a
“balancing approach” must be considered when
dismissing indictments with evidence of prosecutorial
misconduct. The Courts must consider the costs
associated with continued prosecution, the extent of
the severity of the prosecutorial misconduct, the
impact of allowing such prosecutorial misconduct to
persist and other factors.
Unlike in Hasting, where the Court held that
the costs of a retrial outweighed the impact of the
prosecutorial misconduct, this is a case where the
exact opposite is occurring.
In this situation, the costs of continued
prosecution and the severity of the prosecutorial
misconduct
greatly
outweigh
any \ other
considerations. This is a case where the alleged
amount of Federal Fraud (-$420,000) is (l) not true
or accurate and (2) where the costs of continued
prosecution and trial are actually significantly higher
than any benefits to the tax-payer.
In this situation, it would actually hurt the tax­
payer to continue to prosecute a case with such
flagrant proof of prosecutorial misconduct given the
relatively small amount of alleged Federal Fraud
(compared to other precedents) and the high costs
associated with trial and continued prosecution.

57

When a defendant raises the issue of
prosecutorial misconduct before trial, application of
the Hasting balancing test actually favors dismissal
of a tainted indictment pre-trial as means . of
protecting both the defendant’s and society’s interests
in preserving fifth amendment protections
and ensuring that blatantly framed and malicious
prosecutions do not persist.
Additionally, given there is documented
evidence that this prosecution is potentially being
used as a vehicle to obstruct justice on Fernandez’s
Qui-Tam Lawsuit (where the alleged proceed of the
Federal Healthcare Fraud is significantly higher)
continued malicious prosecution & prosecutorial
misconduct, actually further severely negatively
impacts the tax-payer & society.
Regarding deterrence, Fernandez and his poor
Father were illegally Publicly Outed and Severely
Defamed over a relatively small amount of Healthcare
Fraud (when compared to other precedents) even
before the audit was complete, the indictment was
released and the arrest of Fernandez occurred. This
resulted in documented incidents of force suicide
taunts, poisoning of his food, felony torture, extreme
public shaming, refusal to serve him at restaurants
and other sociopathic incidents of extreme
discrimination. It also resulted in prolonged
incarceration of Fernandez before even a formal
adjudication of guilt was rendered. Clearly, severe
punishment and unnecessary pain and suffering has
already been inflicted on Fernandez.

58

Even the Timing of Fernandez’s Arrest was Framed
to Obstruct Justice on his Qui-Tam Suit. Additionally.
the Victim Was Subject to Felony Torture While
Under Federal Detainment as Retaliation for his QuiTam Lawsuit
Even the timing of Fernandez’s arrest was
framed to Obstruct Justice on his Qui-Tam
Complaint, further proving the sociopathic abuse of
process and attempt to obstruct.
18 U.S.C. § 1503 defines "obstruction of justice" as an
act that "corruptly or by threats or force, or by any
threatening letter or communication, influences,
obstructs, or impedes, or
endeavors to influence, obstruct, or impede, the due
administration of justice."
“Someone obstructs justice when that person
has a specific intent to obstruct or interfere with a
judicial proceeding. For a person to be convicted of
obstructing justice, that person must not only have
the specific intent to obstruct the proceeding, but that
person must know (l) that a
proceeding was actually pending at the time; and (2)
there must be a connection between the endeavor to
obstruct justice and the proceeding, and the person
must have knowledge of this connection.”
Despite his Federal Arrest Warrant being issued in
July 2020 following the Grand Jury proceedings,
Federal Agents intentionally waited for almost two
months to arrest Fernandez as a way to obstruct
justice on his Federal Qui-Tam Complaint.
Even federal prosecutors admitted to knowing
of Fernandez’s travel to Miami in Fernandez’s
Arraignment Hearing after his Arrest Warrant was
issued, but no arrest was made. Fernandez boarded
flights from international U.S. Territories to the U.S.
59

two times, but no arrest was made. Federal Agents
knew this and knew his exact location upon boarding
the airplanes, but no arrest was made. Even
Fernandez’s parents told investigators of his
whereabouts in Puerto Rico, but Federal Agents
intentionally waited on his Arrest Warrant and no
arrest was made.
Fernandez had no idea an Arrest Warrant was
even issued in July 2020, a fact Prosecutors
conceded to in his Bail Hearing.
Finally, when the timing was right to facilitate
obstruction of justice on his Qui-Tam Complaint,
Federal Agents arrested Fernandez at Newark
airport on September 18, 2020, a day
after he filed a Felony Torture Complaint with the
U.N. Convention Against Torture exposing
their sociopathic Felony Torture & Witness
Tampering.
Upon being taken into Federal Detainment, it
was then that Federal Prosecutors suspiciously
immediately “un-sealed” Fernandez’s Qui-Tam
Complaint on 9/24/20. They then proceeded to tamper
with his legal representation and gave him a deadline
to ascertain new Counsel that was intentionally done
to remove his ability to litigate and obstruct justice.
Additionally, while in Federal Detainment,
Fernandez’s Public Defender was intentionally
tampered with and instructed to refuse to answer his
calls to prolong his detainment. Fernandez’s friend,
Brent Boyko, confirmed this to him in a telephone call
on 2/6/21. Boyko confirmed that Fernandez’s Public
Defender would answer Brent’s calls, but admitted to
intentionally not answering Fernandez’s calls in
Federal Detainment as a way to prolong his
incarceration.

60

On October 11, 2020, Fernandez had to put in
•a Request for Protective Custody after Confidential
Information was leaked in the Facility regarding his
Qui-Tam Lawsuit resulting in Fernandez receiving
death threats, being “Black Power Taunted” by Blood
Gang Members and a felony Stabbing Assault being
planned on him in his unit.
Additionally, his Protected Health Information
(“PHI”)
and
other
sensitive
“Confidential
Information” protected by Federal Privacy Laws were
widely disseminated and leaked illegally in the
Facility without his consent. Even his Cellies (some
being held on Murder & Rape charges) were
instructed to Felony Psych-Torture & Taunt
Fernandez in his cell while he was under Federal
Detainment due to his Qui-Tam Lawsuit, violating 18
U.S. Codes § 1512 & § 1513.
On November 5, 2020, Fernandez finally was
able to secure release from Detention after being
ignored by his Public Defender for 2 months (despite
attempting to call her over 30 times) as an intentional
way to prolong his Detainment. Upon being released
from Detention, Fernandez found his Federal QuiTam Complaint “Un-Sealed” and the deadline for
securing alternative counsel already lapsed. This
timing was all intentionally orchestrated and tightly
coordinated to obstruct justice on his Federal QuiTam Complaint.
The Prosecutor Had Inappropriate Communications
with the Private Defense Counsel of the Defendants
in his Qui-Tam Lawsuit Suggestive of Potential
Obstruction Justice or Collusion
There is also now additional evidence that
Prosecutor Emily Chang was in correspondence with
61

Private Attorney Arthur Lee Bentley III, Private
Defense Counsel to the Defendant in Fernandez’s
Qui-Tam Complaint, Physician Partners LLC.
Attorney Bentley is a former U.S. Attorney in the
Middle District of Florida.
This is obviously an extreme conflict of interest
and suggests that there is some type of collusion or
coordination going on between the prosecution in this
case and the protection of the Defendants in
Fernandez’s Federal Qui-Tam Complaint. Such
behavior is unethical and unscrupulous and suggests
that Fernandez’s prosecution is potentially being used
as a vehicle to obstruct justice on his Federal Qui-Tam
Complaint.
The communication between Chang and
Bentley was confirmed in an email she sent to Bentley
on January 12, 2021 (see Exhibit J). The Defendant is
suspicious that this is only the “tip of the iceberg”
regarding the communication between the two. He is
also suspicious that this was a staged email with the
intent to “cover their trails” with regards to any
additional collusion, telephonic conversations or
additional correspondence between the two regarding
Fernandez.
The Defendant has requested all information
on all communications between these two parties, as
well as other exculpatory evidence (see BRADY
MATERIAL).

62

CONCLUSION
For the foregoing reasons Defendant, Keith M.
Fernandez, respectfully asks for entry of an Order
dismissing the indictment.

Respectfully submitted this 15th day of February
2021.
s/Keith Fernandez
Keith Fernandez
Defendant Pro Se
2515 S Atlantic Ave, Unit 708
Daytona Beach, FL 32118
(407) 493-0454

63

APPENDIX D-2
Complaint ofFelony Federal Witness Tampering &
Obstruction ofJustice filed with the Attorney
General for the Southern District ofFL
Dated March 2, 2021. Sent via Email.
Whom It May Concern,
My name is Keith Fernandez and I am a
Federal Whistleblower (see resume attached). I have
an active Federal Lawsuit filed in the Middle
District of Florida exposing Large Scale Medicare
Fraud ($100M +) by Serial Federal Offenders
currently under investigation by the FBI & other
agencies.
See United States ofAmerica ex rel. Keith
Fernandez vs. Freedom Health, Inc., Optimum
Healthcare, Inc. and Physician Partners, LLC, Case
no. 8'2018-cv-1959.
I file this Criminal Complaint for Continuing
& Flagrant Felony Witness Intimidation in violation
of 18 US Code § 1512 and Obstruction of Justice in
violation of 18 US Code § 1503.1 file in the Southern
District of Florida as there is an Obvious Conflict of
Interest in the Middle District given my
Whistleblower Lawsuit.
Specifically, there are certain Agents in the
Federal Government that are Obstructing Justice on
my Lawsuit to cover up the Crime Scene for "Black
Empowerment Purposes." They have put me under
24/7 Blanket Surveillance by the CIA and certain

64

agents are obviously seriously abusing their federal
surveillance powers to.harm me.
Such abuse has resulted in the following Felonies
committed against me for Witness Intimidation &
Obstruction purposes (see complaints attached):
•

2/23/21: Criminal Complaint Filed with the IC3
of the FBI for Grand Larceny of ~$104,000 &
flagrant violations by certain CIA personnel of
the Computer Fraud & Abuse Act, including
Trafficking Passwords, Illegally Accessing a
Computer with the Intent to Defraud & Felony
Cyber-Stalking. They are watching me, hacked
my computer and stole ~$100,000 to prevent me
from paying an Attorney to Obstruct on my
Whistleblower Lawsuit, (see complaint
attached)

•

9/18/2Q: False & Retaliatory Arrest on minor
charges based on an Illegal Audit and Framed
Grand Jury Indictment. I am NOT GUILTY of
these charges. They badly framed me and my
dad and planted false evidence on his practice.
All this was done illegally to retaliate against
me and discredit my Whistleblower Complaint.
I received Felony Torture & Witness
Intimidation in my cell. Felony Tampering of
my Public Defender to extend my pre-trial
incarceration so my Whistleblower Lawsuit
could be dismissed (they did this intentionally
to Obstruct Justice). I had to put in a
Protective Custody request due to "Black
Power" Stabbing & Assault Threats by Gangs
who were tipped off to my Whistleblower
Lawsuit
65

•

9/17/20- Human Rights Complaint of Felony
Witness Intimidation & Torture filed with U.N.
Convention Against Torture ("CAT")
Committee. Allegations of poisonings, force
suicide taunts and Ordered Witness
Intimidation Felony Assaults (punishable by
up to 30 years) on the Whistleblower. The very
next day they were so scared they did a
Retaliatory Arrest on me on the False Charges
after waiting 2 months on a Secret Warrant
and they knew my location the whole time, (see
attached CAT Complaint)

•

4/24/20- Criminal Complaints filed with the US
Attorney General of the Eastern District of
New York reporting Surveillance Abuse,
Ordered Felony Assault, Felony Witness
Tampering & Obstruction of Justice (see
attached Complaint)

This is turning into a Serious & Hostile Felony
Witness Intimidation & Obstruction Crime Scene.
This is turning into a Serious & Hostile Felony
Human Rights Situation. I implore you to please help
me and my poor family as our safety is at risk. Please
properly investigate and rectify this Disturbing
Situation before someone gets hurt. We want this
fully investigated and prosecuted to the full extent of
the Law. They are Feloniously Obstructing Justice on
Hundreds of Millions of USD to cover up a Bad Crime
Scene and Federal Offense. This cannot happen and
me and my family are BAD VICTIMS. My family is
getting Very Badly Felony Harmed due to this
Whistleblower Lawsuit. We need this investigated.
We need help.

66

APPENDIX D-3
Excerpt of Complaint of Torture & Felony
Whistleblower Abuse filed with the U.N. Convention
Against Torture (“CAT”) & HR Committee
Dated September 17, 2020.
Complaint Procedure Unit__
Human Rights Council Branch'__________________
Office of the United Nations High Commissioner for.
Human Rights1_______________
United Nations Office at Geneva
jCH-1211 Geneva 10, Switzerland!
Facts of the complaint and nature of the alleged
violation(s)
The complaint procedure addresses consistent
patterns of gross and reliably attested violations of all
human rights and all fundamental freedoms
occurring in any part of the world and under any
circumstances.
The Allegations contained herein are 100%
True and Factually Accurate. Fernandez would attest
to all these allegations under Threat of Perjury and
would take a Lie Detector Test regarding these
allegations. He submits this Complaint to protect
himself against HOMICIDE RISK.
The truth is plain & simple. Fernandez
discovered a Massive Federal Conspiracy Crime
(Federal Fraud with proceeds over $250 Million) and
filed a Whistle-Blower Lawsuit in 2018. Certain
federal authorities want to “CoverTt Up.” They are
Dirty & Corrupt. In an attempt to “Cover-Up” the
Accurate & Truthful contents of his Complaint (they

67

know it is indeed Fraud), Federal Authorities
including the CIA, have orchestrated a Campaign of
Extreme Torture, Felony Witness Intimidation,
Abuse of Surveillance (they put him under 24/7 CIA
Monitoring under the “Fake Guise” of “National
Security” despite him not satisfying the criteria for
such Surveillance, they are Monitoring & Torturing
him like Racists and are Sex & Race Taunting Him).
Fernandez possesses No Weapons or ammunition, has
never committed violence in his life, is not being a
Terroristic threat & does not satisfy the criteria for
Blanket Surveillance. They have Full Control over
him now, are stalking him wherever he goes and are
trying to cover up his Whistle Blower Complaint.
They have done everything Criminal to him besides
Murder. HE FEARS HOMICIDE RISK.
Specifically, Agents of the U.S. Government are
committing the following Felonious Human Rights
Crimes^
Felony Witness Tampering. Use of Chemical
Weapons. Poisonings. Ordered Felony Assaults
Immediately after filing his Whistle-Blower Suit,
Federal Agents put Fernandez under Illegal Blanket
Surveillance, began intimidating, Felony Stalking
and harassing Fernandez. This resulted in criminal
threats, weapons threats, poisonings, extreme
physical stalking, racial & sexual taunts, ordered
Witness Tampering Assaults & Framings for Mental
Illness. On February 2, 2020, Plaintiff Fernandez's
drink at ski resort Jack Frost & Big Boulder
Mountain was laced with an unknown Chemical
Weapon, resulting in Fernandez immediately

68

having a Drug-Induced Syncope, putting him at risk
for Permanent Brain Damage and Death. Upon
taking a sip of his drink, he immediately passed out
and began convulsing on the floor like a Novichok
victim. Given the sophistication of the Chemical
Weapon used, he believes this was orchestrated by
Federal Agents.
Additionally, he was further poisoned by individuals
with connection to the CIA on 8/8/20 in Miami, FL
resulting in a Criminal Complaint to the USAG.
Additionally, Federal Agents ordered a Documented
Felony Witness Tampering Assault on Fernandez on
5/1/20 violating 18 U.S. Code § 1512. They set him up,
ordered an Assault on him (caught on Surveillance
Tap) to Witness Intimidate him and are actively
trying to cover it up. This resulted in a Criminal
Complaint with the USAG, an Assault Police Report
& a Federal Lawsuit (CV: filed in the Eastern District
of New York that is actively being litigated.
Felony Human Sex Trafficking. Sex Molestation,
Extortion & a Faked Pregnancy
Federal Agents went so far as Felony Sex Trafficking
a woman, "Tiziana Antolino" (an Undercover Federal
Agent) to begin a Sexual Relationship with him. Once
she gained his trust, she then invaded his privacy,
stealing personal information from him and then
passing this information on to Federal Agents to harm
him (while having Sex with him). Additionally, once
this woman (Tiziana Antolino) knew he was
suspicious of her, she proceeded to Extort Him by
saying that she was "Pregnant with his Child" (even
though she 100% was not) and that she would release
this Scandalous Information if he didn't dismiss his
Whistle Blower lawsuit. It was an obvious Extortion
69

Attempt. When confronted his belief that she was an
Undercover Federal Agent, the woman subsequently
passed out she was so scared & nervous. Fernandez
then filed a Police Report. There is No Evidence that
she was Pregnant or received an Abortion. It was a
Faked Pregnancy to Extort him.
Criminal Assault & Weapons Threats by
Federal Agents
On 3/14/20, a Federal Agent with knowledge of
Fernandez’s personal & confidential information
through CIA Communications Intelligence
Brandished a Knife in Brooklyn to scare him. The
NYPD were called to the Scene and the man fled the
Scene. The NYPD intentionally did not take this
complaint seriously as they were tipped off by the
Feds, indicating a Conspiracy to cover up this act. A
Police Report was filed. If this man is a Federal Agent,
this is a Severe Criminal Act. Every attempt is being
made to determine who this man is and why he was
tipped off that I was going to be at the skate park.
Illegal Employment Tampering
Federal Agents are directly monitoring his Computer
& Mobile devices. In an attempt to discredit him &
cover up his Federal Whistle-Blower Lawsuit, Federal
Agents went so far as directly Tampering with this
Financial Consulting Clients, giving him Fake Clients
& defaming him to his Employer. It got so obvious
they were tampering with his Clients that he recorded
one Fake Client blatantly lying. They also then
defamed him from consulting partners including
TopTal LLC & potential employers including
BlackRock. They wanted to see Fernandez “ruined” to
discredit his Whistle Blower Complaint.
70

They Robbed him of a Wharton Valedictorian
Scholarship
Fernandez placed 1st in his Class in Financial
Mathematics (when adjusted for A+s) over the 2nd &
3rd Semesters at Wharton Business School in 2019.
His GPA was 4.0 with 6 A+s. Federal Agents were
conducting Illegal National Security Blanket
Surveillance on Fernandez at the time due to his
Whistle-Blower Lawsuit. They criminally intervened
on Surveillance & influenced Wharton administrators
to Rob Fernandez of the Valedictorian Award. They
just straight up lied, snubbed Fernandez and gave the
Award to someone with a Lower GPA. This resulted
in an Active Federal Lawsuit against Wharton and a
Fraud Complaint with the US Department of
Education OIG. They are still actively attempting to
cover this up. They wanted to discredit Fernandez to
cover up his Lawsuit.
Flagrant Illegal Surveillance Abuse
It’s become Very Apparent that Federal Agents are
conducting Illegal Blanket Surveillance on
Fernandez’s Computer and Mobile Phone. They then
take this Illegal Intelligence and sensitive
information (personal health information, financial
information, sexual information, history of surgical
procedures) & then Publicly Sex & Race Taunt Him
like Stalin to Inflict Intentional Emotional Distress,
Demoralize Him and Depress Him (even though they
know * they are violating the Law by leaking this
communications intelligence). They also tamper with
his Bank Accounts with No Court Orders to cause him
financial inconvenience. They also do Surveillance on
71

his Mobile Phone to determine his location and then
send Federal Cops & Local Squad Cars to stalk and
intimidate him by buzzing their lights everywhere he
goes (even though they know there is no legal reason
to follow him and no imminent arrest).
Illegal Quarantining & Defamation
To intentionally sabotage his Qui-Tam Case, Federal
Agents are Severely Criminally Defaming him to his
Landlords, ALL Employers & Business Clients he
has, ALL Eating Establishments he visits, ALL
Convenient Stores he visits, ALL Public Recreation
Parks he visits and everyone he is associating with.
Their defamation includes^ (l) saying he is on Steroids
(when they know he’s not), (2) saying he is Mentally
Ill or has an Infectious Disease (despite him
flourishing in school & being healthy), (3) saying he is
Violent (with no evidence at all. He’s never even
punched someone in his life and possess no Weapons
or Firearms). All of this Defamation is done to justify
their Illegal Blanket Surveillance Abuse on
Fernandez in an attempt to Discredit Him & Cover
Up his Whistle-Blower Lawsuit.
Felonious Tampering of Prescription Medications &
Violations of his HIPAA Rights
On numerous occasions, Federal Agents have gone to
extremes to Tamper with his Doctors, his Prescription
Medications and have disseminated his Personal
Health Information widely to other. This includes
sensitive information like surgical history. Federal
Agents have violating his Legal & HIPPAA Rights.
Federal Agents then used this Personal Health
Information (PHI) to further Intimidate & Taunt him.
72

On 3/13/20, Federal Agents instructed NY Pharmacist
Suzanna Abramova to Violate Federal Laws and
tamper with his Prescribed Medications. On 3/16/20,
Federal Agents Violated Federal Laws by
intentionally Tampering with his physician at NJ
Primary Care, violating his Right to Privacy and
HIPAA Laws.
Intentional Tampering with His Food to Give
Him a Food-Borne Illness
Federal Agents are instructing many Eating
Establishments he visit to harass him, publicly
embarrass him, intentionally refuse to serve him and
tamper with his food. This boiled over on several
occasions. On 6/8/19, the Waffle House in Daytona
Beach intentionally served him Raw Meat to give him
a Food-Borne Illness. This resulted in them getting
Sued for Discrimination. At Peter Luger's Steakhouse
in Brooklyn in late February, the Manager came up to
him, looked him in the eyes and made a Sign of
Blowing his head off with a Gun. This was to
intimidate him for the Whistle Blower Lawsuit and to
encourage him to Commit Suicide. On 2/29/20, he was
Intentionally Served Raw Chicken at. Barano's in
Brooklyn, putting him at risk for Salmonella. On
March 1st, 2 Dead Rats were left outside Croxley's
Bar & Grill in Brooklyn to make a Terroristic Threat
against him as a Whistle Blower. At the same bar, the
Bar Tender publicly accused me of Taking Steroids
after being tipped off by the Cops. He was NOT on
Steroids and this was Defamation. This is only the Tip
of the Iceberg of what they are doing.
Exhaustion of domestic remedies

73

1- Steps taken by or on behalf of the alleged victim(s)
to exhaust domestic remedies- please provide details
on the procedures which have been pursued, including
recourse to the courts
and other public authorities as well as national
human rights institutions*, the claims made, at which
times, and what the outcome was^
Fernandez has documented all of the Criminal
Obstruction (they want to cover-up his WhistleBlower Lawsuit), Felony Witness Intimidation &
Violent & Sexual Felonies that have been committed
against him like a Harvard Wharton Scholar. This
has resulted in the following Serious Federal
Lawsuits, FBI Complaints, and Criminal Complaints
with the US Attorney Generals^
• 5/20/2Q: Active Federal Lawsuit Filed Reporting an Up
to 30 Year Federal Incarceration Ordered Felony
Witness Tampering Assault by Reckless Federal
Agents
• 4/20/20- Criminal Complaints Filed with the US
Attorney General of the Eastern. District of NY
reporting CIA Felony Surveillance Abuse, Extreme
Felony Witness Tampering by Federal Agents &
Attempted Criminal Obstruction of Justice to cover-up
his Lawsuit
• 4/19/2Q: Police Report Filed with the NYPD reporting
Felony Sex Trafficking, Sexual Molestation by a
Federal Agent & Attempted Criminal Extortion (they
had an Undercover CIA Agent engage in Sex Acts with
him and then Fake a Pregnancy to Witness Tamper)
• 3/17/2Q: Complaint of Criminal Torture filed with the
Human Rights & Special Prosecutions Section of the
U.S. Department of Justice
• 3/14/2Q: Police Report filed with the NYPD for Weapons
Threat by a Federal Agent

74

APPENDIX D-4
Complaint ofFelony Federal Witness Tampering,
Ordered Witness Intimidation Assault & Obstruction
ofJustice Filed with NYAttorney General
Dated May 2, 2020. Sent via UPS.
To The U.S. Attorney of the Eastern District
of New York:
I wanted to make your Office aware of some
Extreme and Continuing Federal Witness Tampering
& Intimidation that is occurring to me as Direct
Retaliation for being a Federal Whistleblower &
Reporting Police Misconduct and Intimidation by the
NYPD. This is a followup letter to my letter sent to
you on 4/24/20. This Extreme Witness Intimidation
has only Intensified and Worsened since reporting
these violations to your Office on 4/24/20.
Such Flagrant Witness Intimidation Behavior
by the NYPD boiled over into a Flagrant Felony
Incidents on 4/26/20, 4/30/20 and 5/1/20 resulting in
Multiple Felony Crimes (not committed by the
Plaintiff) violating the following:
1. N.Y. Penal Law § 155.30 - Felony Grand
Larceny
2. N.Y. Penal Law § 140.20 — Felony Burglary
3. N.Y. Penal Law § 215.40(2) - Felony Tampering
with Evidence
4. N.Y. Penal Law § 120.05 — Felony Assault in the
Second Degree
5. 42 U.S.C. §1983 — Unlawful Detention and
Confinement

75

6. 18 U.S. Code §§ 1501 - 1521 - Obstruction of
Justice
7. 18 U.S. Code § 1512 — Felony Witness
Tampering
8. 18 U.S. Code § 1513 - Retaliation against a
Federal Witness
Immediately after reporting the Extreme Witness
Tampering Behavior to your Office on 4/24/20,1 was
further Retaliated Against.
On 4/26/20, I left my apartment around noon
and returned to find that my apartment had been
Broken Into and my Expensive ~$1,500 Solid Gold
Harvard Class Ring had been stolen from my
apartment. This resulted in Police Report being filed
(See Incident Information Slip) and a Complaint
being filed with my Land-Lord (See Email
Complaint). The NYPD Officers Galindo & Martino
(aka “Galindo Martino”) intentionally did not take my
Complaint seriously and tried to cover up the Larceny
& Burglary. They intimidated me and wrote “Galindo
Sanchez” or “Got Sanchezed” on the Report, a
Disgusting Sexual & Racist Taunt. (See Information
Slip). When I asked if they had been Tampered with
or if they knew about my Complaint of Harassment to
the NYPD OIG, they Perjured and said “No.” They
seemed nervous as they knew this was a Complete
Lie.
On 4/30/20, I left my apartment around 8pm
and returned around 9pm to find that once again, the
Door to my Apartment had been Illegally Accessed
and the Security Bolt had been tampered with
propping my door open (See Pictures), obviously
reflecting another Burglary (See Email Complaint).

76

After discovering yet another Burglary, I went
to my Landlord to complain and only made the
following statement: “This is a Felony Human Rights
Crime.” I did not Scream. I did not Shout. I did not
Violently Lunge at anyone. I made No Violent Threat.
I had No Weapon. I did not do Anything Illegal
whatsoever. The only thing I said was: “This is a
Felony Human Rights Crime.” I want to Subpoena
the Video Surveillance from my Landlord to Prove
This and am considering taking a Voluntary Lie
Detector Test as I am 100% Telling the Truth.
After making this Complaint, I go back up to
my apartment and moments later 6 NYPD Officers
and 2 Paramedics show up, including Officers Galindo
Martino. They immediately start intimidating me. I
ask them “Why so many cops? Do you really need 8
police to talk to me? Are you guys trying to Harass &
Intimidate me?” I told them I made No Violent
Threats. I told them the only thing I said was “This is
a Felony Human Rights Crime.” I told them “Go
Check the Surveillance Video.” They intentionally did
not listen. Their goal was to Incarcerate Me and the
Truth didn’t matter whatsoever.
Knowing they were going to Frame Me as
Witness Intimidation, I immediately started taking
video on my personal Cell Phone of the incident to
prove I was not acting violently, screaming or do
anything wrong. I was just reporting another Crime
against me. Within minutes, the Paramedics
approached me and put me in Cuffs. They said I
needed to be involuntarily committed. The
Paramedics didn’t even do a Physical Examination
and barely asked Keith any Questions. The decision
to Commit Keith had been Framed Up and
Completely Decided Beforehand. The Truth Didn’t
Matter. This was their Retaliation.
77

Furthering their extreme behavior and the
notion that the Arrest was “Framed” and “CoveredUp,” I return to my apartment the next day and see
that the Police had Intentionally Deleted the Video of
the Arrest from my Personal Cell Phone, committing
N.Y. Penal Law § 215.40(2) - Felony Tampering with
Evidence. I want to subpoena the Body Cam Footage
of the Arrest from the NYPD to prove that I was
taking Video of the Arrest and that the Video was
Intentionally Destroyed, proving the N.Y. Penal Law
§ 215.40(2) Felony and Intent to Cover-Up
the “False Arrest,” a Flagrant Violation of 42 U.S.C.
§1983.
Upon being taken to and arriving to Woodhull
Hospital, the Cops kept intimidating and making fun
of me. This suggested to me that the Hospital had
been tipped off and were going to attempt to frame me.
When I get to the Hospital, it becomes obvious that it
was a “Sham Commitment” and “Fake Arrest.” All of
the other patients were Schizophrenic, Homeless,
Extreme Drug Addicts, Mumbling to themselves,
Freaking Out, Violently Lunging. Plaintiff Fernandez
was just sitting their quietly. It looked Strange to
everyone.
When I arrive to the Hospital, they refuse to
give me any Food. That night, when I am lying in my
cell at lam, a Hospital Employee wakes me up, turns
on my lights and states ‘You’re Getting Murdered.”
When I wake up the next morning on 5/1/20,
with no Food in my Stomach or Water to drink, the
Hospital Staff immediately ask me to Give Blood.
When they went to insert the Needle, they did it
Negligently and stuck it in the wrong vein. This
caused Fernandez immense pain and he Immediately
Suffered a Vasovagal Syncope and Passed Out falling
on the Ground. Such Negligence & Psychiatric
78

Harassment put him at risk for Permanent Brain
Damage due to the restriction of Oxygen to his Brain
from the Syncope.
Immediately after suffering the Syncope,
Plaintiff Fernandez goes to sit in the Common Area of
the Psych Ward. Within minutes, a Violent Patient
approaches Fernandez while he is sitting (without
being provoked whatsoever) and makes Menacing
Lunges and Threats to him. The Violent Patient tells
Fernandez “I hate you Pussy White Boy. Give me your
Fucking Chain.” Fernandez was wearing no Chain
and had no idea who told him he had a Chain.
The entire time the Violent Patient was making
Threats to Fernandez, the entire Hospital Staff were
watching the entire incident and Did Nothing. The
Staff laughed at Fernandez and intentionally Made
Fun of Him, suggesting they had been tampered with
by the Police. Additionally, they intentionally brought
the Violent Patient out of his Cell every time
Fernandez entered the Common Area and let the
Patient chase Fernandez around the Hospital Wing.
This Extreme Behavior by the Hospital Staff
suggested that they were Intentionally Letting
Fernandez get Assaulted, Encouraged it and that they
had been Tampered with by the Police.
The Threats and Menacing by the Violent
Patient finally boiled over and the Patient backed
Fernandez to a Wall and then Struck Him in the Left
Torso and Arm. The entire time, the Hospital Staff
were watching and let it happen. Only after
Fernandez screamed “This is A Felony Crime,” did the
Staff come in and intervene to subdue the Violent
Patient. The. Violent Patient committed Felony 2nd
Degree Assault under NY Penal Code as the Assault
occurred “while being held in correctional facility,”

79

J

r

and with Aggravated Terroristic Threats and
Menacing.
The entire Assault was captured on
Surveillance Video and is Easily Provable. Fernandez
filled out a Police Report in the Hospital signifying he
wants to Press Charges (See Hospital Police Report).
If Charges are Not Filed, this is Obvious Obstruction
of Justice and Intent to Cover-Up an Easily Provable
Crime as it was all Captured on Hospital Surveillance
Camera and over 20 people witnessed the Assault,
Menacing & Terroristic Threats.
Plaintiff Fernandez was then seen by the
Hospital Physicians on 5/1/20. It was pretty obvious
that this was a “Sham Commitment” and
“Retaliation” by the NYPD for the WhistleBlower
Suit. They let Fernandez out on 5/1/20 and did not
Formally Diagnose Him with any Psychiatric
Disorder. He was acting calm.
Fernandez will 100% be filing a Federal Civil
Rights Lawsuit in the U.S. District Court against the
NYPD and Hospital for this Incident asserting the
following torts^ (i) False Arrest & Imprisonment
under 42 U.S.C. §1983, (ii) Deliberate Indifference in
violation of the 8th Amendment, (iii) Assault &
Battery for the Negligent Needle Puncture and
resulting Syncope and (iv) Intentional & Negligent
Infliction of Emotional Distress given the Physical
Injury that occurred.
He asks your Office to investigate the below
crimes that occurred in relation to this incident. He
will be requesting the Surveillance and Body Cam
Footage of the Arrest from the NYPD (which is
required to keep all videos of arrests for 18 months)
and from the Hospital to prove these crimes. He is
worried the Police and Hospital may be attempting to

80

r
!■'

,

Illegally Destroy this Surveillance Evidence & CoverUp the Crime.
1. Felony Tampering with Evidence for Intentionally
Deleting Fernandez’s Video of the Incident from
his Cell Phone after the Arrest occurred to coverup the Corruption
2. Federal Witness Tampering & Retaliation given
the sustained, extreme and repetitive nature of
the behavior by the NYPD against Fernandez in
Direct Retaliation for his Federal Lawsuit
3. Obstruction of Justice for attempting to cover up
these crimes
I implore you to take proper actions to ensure that the
Witness Intimidation of Plaintiff Fernandez stops and
that any Responsible Local Agents are properly
prosecuted, reprimanded and disciplined for their
immature behavior. I also ask that you take proper
measures to ensure that Plaintiff Fernandez is
appropriately protected as a Federal Whistleblower,
so that he does not end up Killed or in the Hospital.
This is a Very Serious Matter and I hope you give it
your utmost attention and time. Thank you.

81

